                   AUDIT REPORT


              Audit of the Nuclear Regulatory Commission’s
                         USAID-Funded Activities

                       OIG-08-A-12      July 15, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                   July 15, 2008


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations

                            Margaret M. Doane
                            Director, Office of International Programs



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF THE NUCLEAR REGULATORY COMMISSION’S
                            USAID-FUNDED ACTIVITIES (OIG-08-A-12)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of the
Nuclear Regulatory Commission’s (NRC’s) USAID-Funded Activities.

The report presents the results of the subject audit. Agency comments provided at the
April 24, 2008, exit conference and on May 30, 2008, have been incorporated, as
appropriate, into this report. No changes were made to the report based on the
agency’s July 2, 2008, formal comments (see Appendix C).

Appendix C provides information on actions taken or planned on each of the audit report
recommendations. Corrective actions taken or planned are subject to OIG followup as
stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Steven Zane, Team Leader, Financial and Administrative Audit Team, at
415-5912.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                          Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities



EXECUTIVE SUMMARY

                  BACKGROUND

                  The Foreign Assistance Act of 1961, as amended, and the Freedom
                  Support Act (FSA) contain the funding authority to provide nuclear
                  regulatory assistance to countries of the former Soviet Union (FSU). The
                  Foreign Operations, Export Financing, and Related Programs
                  Appropriations Act, 2006, section 509(c), requires the Office of the
                  Inspector General (OIG) to perform periodic program and financial audits
                  for the agency receiving the transfer or allocation of U.S. Agency for
                  International Development (USAID) funds. The Nuclear Regulatory
                  Commission (NRC) uses both USAID funds1 and NRC appropriated funds
                  to provide international nuclear regulatory assistance to FSU countries.
                  This report presents the results of OIG’s audit of NRC’s use of USAID
                  funds (exclusive of NRC appropriated funds).

                  For fiscal years (FY) 1992 through 2007, USAID provided the NRC
                  approximately $53,315,000 in FSA funding for assistance programs to
                  improve near-term safety of Soviet designed reactors and enhance
                  regulatory oversight of radioactive sources in Armenia, Georgia,
                  Kazakhstan, Russia, and Ukraine. NRC’s Office of International Programs
                  (OIP) is responsible for administering NRC’s USAID-funded program.

                  PURPOSE

                  The objectives of this audit were to evaluate whether:

                      1. NRC's corrective actions resulting from OIG’s recommendations in
                         Audit Report OIG-02-A-04, dated December 3, 2001, are being
                         adequately implemented.

                      2. NRC’s management controls over the use of USAID funds are
                         adequate.

                  RESULTS IN BRIEF

                  NRC's corrective actions resulting from the previous OIG audit of USAID-
                  funded activities have been either adequately implemented or are no



1
    For purposes of this report, OIG uses the terms USAID funds and FSA funds interchangeably.
                                                     i
                    Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities



longer applicable. However, opportunities exist to improve NRC’s
management controls over the use of USAID funds. Specifically, NRC:

•   Miscategorized USAID funds in NRC’s accounting records, and

•   Did not process Intragovernmental Payment and Collection
    transactions within the required timeframe.

RECOMMENDATION

This report makes recommendations to improve NRC’s management
controls over the use of FSA funds. A consolidated list of these
recommendations appears in Section IV of this report.

AGENCY COMMENTS

At an April 24, 2008, exit conference, agency senior executives agreed to
provide suggested revisions to the discussion draft report for OIG’s
consideration. On May 30, 2008, NRC provided suggested report
revisions, which served as a basis for further discussions between the
agency and OIG. This final report incorporates revisions made, where
appropriate, as a result the agency’s suggestions.

On July 2, 2008, the Director, OIP, provided a formal response to this
report (Appendix C). No changes were made to the report, based on the
agency’s formal response. OIG’s response to the agency’s formal
comments is presented as Appendix D.




                               ii
                    Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities



ABBREVIATIONS AND ACRONYMS

       AdSTM       Advanced Systems Technology and Management,
                   Inc.

       DOE         U.S. Department of Energy

       FSA         Freedom Support Act

       FSU         former Soviet Union

       GAO         U.S. Government Accountability Office

       FY          fiscal year

       IPAC        Intragovernmental Payment and Collection

       MD          Management Directive and Handbook

       MOA         Memorandum of Agreement

       NRC         U.S. Nuclear Regulatory Commission

       OCFO        Office of the Chief Financial Officer

       OIG         Office of the Inspector General

       OIP         Office of International Programs

       USAID       U.S. Agency for International Development




                               iii
     Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities




[Page intentionally left blank.]




                iv
                                           Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities



TABLE OF CONTENTS

    EXECUTIVE SUMMARY....................................................................................i

    ABBREVIATIONS AND ACRONYMS .............................................................. iii

    I.     BACKGROUND ....................................................................................... 1

    II.    PURPOSE................................................................................................ 4

    III.   FINDINGS ................................................................................................ 5

           A.     MISCATEGORIZATION OF USAID FUNDS ............................................... 5
           B.     UNTIMELY TRANSACTION PROCESSING .............................................. 11

    IV.    CONSOLIDATED LIST OF RECOMMENDATIONS .............................. 14


    APPENDICES

    A. SCOPE AND METHODOLOGY ............................................................... 15

    B. PRIOR AUDIT REPORT RECOMMENDATIONS..................................... 17

    C. FORMAL AGENCY COMMENTS ............................................................. 19

    D. OIG RESPONSE TO FORMAL AGENCY COMMENTS........................... 21




                                                         v
 Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities




[Page intentionally left blank.]




            vi
                            Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


I.   BACKGROUND

               The Foreign Assistance Act of 1961, as amended, and the FSA
               contain the funding authority to provide nuclear regulatory
               assistance to countries of the FSU. The Foreign Operations,
               Export Financing, and Related Programs Appropriations Act,
               2006, section 509(c), requires OIG to perform periodic program
               and financial audits for the agency receiving the transfer or
               allocation of USAID funds. NRC uses both USAID funds2 and
               NRC appropriated funds to provide international nuclear
               regulatory assistance to FSU countries. This report presents
               the results of OIG’s audit of NRC’s use of USAID funds
               (exclusive of NRC appropriated funds).

               For FY 1992 through 2007, USAID provided NRC approximately
               $53,315,000 in FSA funding for assistance programs for
               Armenia, Georgia, Kazakhstan, Russia, and Ukraine. Figure 1
               highlights the FSU countries receiving FSA funds from NRC.




               Figure 1: Map highlights former Soviet Union countries that receive
               FSA funds from NRC.




2
  For purposes of this report, OIG uses the terms USAID funds and FSA funds
interchangeably.


                                             1
           Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


Figure 2 indicates the breakdown of FSA funding by country, as
provided by NRC.


                         FSA Support to NRC
                Fiscal Years 1992 Through 2007 Funds
                                (Dollars in Thousands)

                                                  Armenia,
                                                   $6,965
              Ukraine,
              $21,583                                    Georgia, $220
                                                           Kazakhstan,
                                                             $7,020


                                                 Russia,
                                                 $17,527

Figure 2: FSA Funds FY 1992 - FY 2007

An objective of these assistance programs is to improve near-
term safety of Soviet-designed reactors and enhance regulatory
oversight of radioactive sources in Armenia, Georgia,
Kazakhstan, Russia, and Ukraine. FSA funds use includes:

•      Development of source databases,
•      Radiation safety standards training,
•      Design certification training,
•      Decommissioning of Soviet-designed nuclear plants, and
•      Protection of nuclear materials.




                            2
                             Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


                Program Administration

                NRC’s OIP is responsible for
                administering NRC’s USAID-
                funded program. OIP is
                composed of approximately 31
                personnel and is headed by a
                Director who reports to the
                NRC Commission. The
                International Cooperation and
                Assistance Branch, one of two
                branches within OIP, has
                responsibility for facilitating the
                agency’s nuclear regulatory
                assistance to the countries of
                the FSU, and has dedicated
                two full time equivalents to
                accomplish this effort.3 Two        Chernobyl Nuclear Power Plant, Ukraine
                OIP staff serve as project          Source: Vadim Mouchkin / International Atomic Energy Agency

                managers of the following
                agreements for NRC’s assistance:

                •   One commercial contract with Advanced Systems
                    Technology and Management, Inc. (AdSTM),4 and

                •   Three Department of Energy (DOE) laboratory agreements.5




3
  OIP plans to devote additional resources to the USAID-funded program. Due to a retirement
during the audit period, one position was unfilled for 3 months.
4
  The contract NRC-08-07418, effective January 11, 2007, requires, for example, that AdSTM
assist in developing country specific long-term plans which focus primarily on providing
assistance to (1) develop country specific national registries of radioactive sources, and(2)
establish laws and regulations to regulate and control the sources.
5
  The DOE laboratory agreements include one agreement with Brookhaven National
Laboratory, Support to Russian Federal Nuclear and Radiation Safety Authority, July 22,
2002; one agreement with Brookhaven National Laboratory, Support to State Nuclear
Regulatory Committee of Ukraine, May 31, 2001; and one agreement with Pacific Northwest
National Laboratory, Technical Support for the Ukrainian Nuclear Regulatory
Administration/State Scientific and Technical Center, May 25, 1999. These three laboratory
agreements each have a current expiration date of September 2008.


                                               3
                    Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


II.   PURPOSE

          The audit objectives were to evaluate whether:

          1. NRC's corrective actions resulting from OIG’s
             recommendations in Audit Report OIG-02-A-04, dated
             December 3, 2001, are being adequately implemented.

          2. NRC’s management controls over the use of USAID funds
             are adequate.

          See Appendix A for a description of the audit scope and
          methodology.




                                     4
                   Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


III. FINDINGS

         NRC's corrective actions resulting from the previous OIG audit
         of USAID-funded activities have been either adequately
         implemented or are no longer applicable. (See Appendix B for a
         list of the prior OIG audit report recommendations.) However,
         opportunities exist to improve NRC’s management controls over
         the use of USAID funds. Specifically, NRC:

         •   Miscategorized USAID funds in NRC’s accounting records,
             and

         •   Did not process Intragovernmental Payment and Collection
             transactions within the required timeframe.


    A. MISCATEGORIZATION OF USAID FUNDS

         While the Memoranda of Agreement (MOAs) between USAID
         and NRC specify the dollar amounts allocated to each of five
         FSU countries, the methodology used by NRC to pay individual
         AdSTM contract invoices resulted in a miscategorization of
         approximately $154,000 of FSA funds on the agency’s official
         accounting records for the audit period. This condition is the
         result of inadequate contract provisions, noncompliance with
         agency policy, and undocumented and incorrect office
         procedures. Unless corrected, this payment practice could
         result in NRC overspending the FSA amounts allocated by
         USAID to specific countries.

         Memoranda of Agreement Requirements

         The MOAs between USAID and NRC require that FSA funds
         allocated to NRC be used to improve near-term safety of Soviet-
         designed nuclear reactors and enhance regulatory oversight of
         radioactive sources in Armenia, Georgia, Kazakhstan, Russia,
         and Ukraine. Annually, the MOAs allocate a certain dollar
         amount of funds to each country. FY 2006 FSA funds in the
         amount of $2,015,000 were allocated as shown in Figure 3
         below:




                                    5
                             Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities




         COUNTRY                    FSA FUNDS ALLOCATED IN FY 2006

         Armenia                                      $500,000
         Georgia                                      $120,000
         Kazakhstan                                   $400,000
         Russia                                       $500,000
         Ukraine                                      $495,000

        Figure 3: FY 2006 Fund Allocation for FSA Funds Per MOAs Between USAID
        and NRC

                Upon receipt of the FSA funds, NRC assigns each country
                separate accounting job codes within the agency’s accounting
                system. This assignment of accounting codes is in accordance
                with Federal accounting rules,6 which require budget integrity
                (spending in accordance with legal authority) and accurate
                accounting to determine operating performance (how much
                programs cost).

                Payment of Contractor Invoices

                NRC entered into its new contract with AdSTM in January 2007.
                AdSTM performs work in several countries on behalf of NRC,
                including, but not limited to, the countries that are specified in
                the MOAs. As of September 2007, AdSTM submitted four
                invoices that were paid using FSA funds. Each of these four
                invoices reflects work performed in four of the five countries7
                specified in the MOAs and in five8 other countries (See Figure
                4). While the contractor’s invoices are for work performed in the
                nine countries, the invoices do not discretely identify the costs
                associated with the work performed in each individual country.

                Since there is a lack of detailed invoice documentation, OIG
                requested that the OIP project manager separate the costs, by
                country, for each invoice submitted under the new contract,
                through September 2007. The OIP project manager provided
                this information (see Figure 4, section labeled, “Project Manager
                Estimate of Work Performed by Country”), but stated that
6
  Federal Accounting Standards Advisory Board, Federal Accounting Concepts and
Standards, December 31, 1996.
7
  The four countries specified in the MOAs where the contractor performed work are:
(1) Armenia, (2) Georgia, (3) Kazakhstan, and (4) Ukraine. No work was performed in
Russia.
8
  The five other countries not specified in the MOAs, but where the contractor performed work
are (1) Azerbaijan, (2) Kyrgyzstan, (3) Moldova, (4) Tajikistan, and (5) Uzbekistan.


                                              6
                                                   Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


                                 certain costs were based upon estimates, using information
                                 provided in each invoice, of how much time contractor
                                 personnel spent working on country-specific issues.

                                 Of the four invoices submitted by AdSTM and paid using FSA
                                 funds, NRC paid one invoice using FSA funds allocated to
                                 Armenia, one invoice using FSA funds allocated to Georgia, and
                                 two invoices using FSA funds allocated to Kazakhstan.
                                 Therefore, for each of the four individual invoices, FSA funds
                                 allocated to a specific FSU country were used to pay for
                                 contractor work performed in that country, and were also used
                                 to pay for contractor work performed in:

                                        •    Other countries specified in the MOAs (which have their
                                             own allocation of FSA funds), and

                                        •    Countries not specified in the MOAs.

                                 The complete details of this miscategorization are shown in
                                 Figure 4 below.

Figure 4: Miscategorization of FSA Funds

                                       Countries Specified in the                                 Countries Not Specified in the
                                   Memoranda of Agreement with USAID                            Memoranda of Agreement with USAID
                                                                                                                                                     Total All
                                 Armenia    Georgia Kazakhstan       Ukraine       Azerbaijan Kyrgyzstan       Moldova       Tajikistan Uzbekistan   Columns

    Project Manager
    Estimate of Work
    Performed by Country

                        8
       Invoice Number
          17-0109-02             $ 40,647     6,792       28,114          784            261         8,209        3,415         2,614         784       91,623
          17-0109-03               12,517     6,766       30,218          794            265        10,255        2,648         2,648         794       66,906
          17-0109-05               11,989     6,914       25,937       29,699          1,839         2,360       19,056         2,419         726      100,940
          17-0109-06                9,103    13,853       40,653       29,911            313         2,501       11,101         3,127      17,199      127,761
    Total (A)                      74,257    34,325      124,922       61,189          2,678        23,326       36,220        10,808      19,504      387,230

    FSA Funds Used
    to Pay Invoice

                        8
       Invoice Number
          17-0109-02               91,623         -            -               -            -             -              -           -          -       91,623
          17-0109-03                    -    66,906            -               -            -             -              -           -          -       66,906
          17-0109-05                    -         -      100,940               -            -             -              -           -          -      100,940
          17-0109-06                    -         -      127,761               -            -             -              -           -          -      127,761
    Total (B)                      91,623    66,906      228,701               -            -             -              -           -          -      387,230


                        9
    Overcharged (B-A)              17,365    32,581      103,779                                                                                       153,725
                            10
    Undercharged (B-A)                                                (61,189)         (2,678)      (23,326)    (36,220)       (10,808)   (19,504)    (153,725)

    Countries not specified in the
    Memoranda of Agreement with USAID                                                  (2,678)      (23,326)    (36,220)       (10,808)   (19,504)     (92,536)


8
     Since the first and fourth contractor invoices were paid using NRC funds rather than FSA funds, they are not included in Figure 4, which reflects FSA funds only.
9
     Overcharges represent FSA funds allocated to a country that were spent in excess of the cost of the contractor work performed for that country.
10
     Undercharges represent contractor work performed for a country paid with FSA funds that were allocated to other countries.




                                                                                   7
           Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


The miscategorization of approximately $154,000 of FSA funds
results in a lack of compliance with Federal accounting rules.

OIG notes that the OIP project manager responsible for this
contract tracks the FSA funds in a file separate from the
agency’s official accounting records. This document is stored
on the project manager’s personal computer hard drive and is
rarely accessed by anyone other than him. Reportedly, in
December 2007, a new contract manager for Assistance
Programs was hired and this information is now on a password
protected shared drive folder.

Reasons for Miscategorization

The miscategorization of FSA funds results from inadequate
contract provisions, noncompliance with agency policy, and
undocumented and incorrect office procedures.

       Inadequate Contract Provisions

The billing instructions included in the AdSTM contract do not
require the contractor to specify the costs by country. However,
because the FSA funds are transferred to NRC with prescribed
dollar amounts allocated to each specifically named country, it is
essential to separate the invoice costs by country so that FSA
funds are used in accordance with the MOAs.

       Noncompliance with Agency Policy

OIP miscategorized FSA funds because it did not follow agency
policy during the fulfillment of its funds control responsibilities.
Furthermore, OIP managers have not performed the
supervisory responsibilities needed to ensure that project
managers have followed agency policy. Management Directive
and Handbook 4.2, Administrative Control of Funds (MD 4.2),
contains agency policy that assigns allowance holders the
responsibility for ensuring that allocated funds are expended for
the purposes for which they were appropriated as reflected in
the current allowances and financial plans. Adherence to this
funds control policy and supervisory attention are required
measures that could have prevented this miscategorization.




                            8
           Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


      Undocumented and Incorrect Office Procedures

OIP does not currently have official documented office
procedures explaining how to correctly process contractor
invoices. Such office specific procedures are needed because
the use of FSA funds and the requirement to identify contract
costs by country are functions unique to OIP. NRC offices,
including smaller offices, have established office instructions
intended to facilitate staff compliance with higher level
requirements such as statutes, regulations, Federal standards,
and agency policy. Procedures stated in an office instruction
should be followed in order to benefit from previous lessons
learned, achieve compliance with applicable requirements, and
improve efficiency and consistency.

OIP is developing office procedures expected to provide
guidance on completing OIP tasks and activities. OIP drafted
an office level Desk Officers Handbook that OIP management
said is expected to contain an appendix with procedures that
address the use of funds, including FSA funds allocated by
USAID and NRC appropriated funds.

Accounting Impact

The above described process used by NRC to pay AdSTM’s
invoices has resulted in a miscategorization of FSA funds in
NRC’s official accounting records in the amount of $153,725
(see Figure 4). The $153,725 miscategorization of FSA funds
includes $92,536 used to pay the contractor for work performed
in countries not specified in the MOAs. The difference of
$61,189 reflects contractor work performed for Ukraine, but paid
out of FSA funds for Armenia, Georgia, and Kazakhstan.

In addition, the current contractor payment practice could result
in NRC overspending the amounts allocated by USAID to
specific countries. Requiring the contractor to prepare invoices
that identify contract costs by country would facilitate proper
invoice processing and accounting to include the correct use of
FSA funds.




                            9
          Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


Recommendations

OIG recommends that the Director, OIP, in coordination with
other appropriate offices:

1.    Modify the Advanced Systems Technology and
      Management, Inc., contract to require invoices to identify
      contract costs by country.

2.    Correct accounting records applicable to the Advanced
      Systems Technology and Management, Inc., contract.

3.    Develop and implement written office procedures for the
      U.S. Agency for International Development funded
      program to include guidance on contract payments and
      associated quality controls involving supervisory review.




                           10
                           Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


       B. UNTIMELY TRANSACTION PROCESSING

               U.S. Government Accountability Office (GAO) and agency
               policy require that management provide timely review and
               approval of transactions. However, OIP did not process DOE
               laboratory agreement transactions within the required
               timeframe. The laboratory agreement transactions were not
               processed timely because OIP is not following existing agency
               policy and lacks quality controls involving supervisory review.
               Without adherence to agency policy and quality controls
               regarding OIP’s transaction processing, the potential for
               improper payments is increased.

               Intragovernmental Payment and Collection Approval
               Requirements

               The GAO11 publication, Standards for Internal Control in the
               Federal Government, requires timely review and approval of
               transactions to ensure accuracy and validity of records. NRC
               implements this internal control standard through agency
               requirements contained in Management Directive and
               Handbook 11.7, NRC Procedures for Placement and Monitoring
               of Work with the U S. Department of Energy (DOE) (MD 11.7).
               MD 11.7 requires that DOE lab agreement project managers
               sign and return the “Approval for Interagency Billing – DOE”
               form within 20 calendar days from the date on the forwarding
               memorandum from the Office of the Chief Financial Officer
               (OCFO) that transmits the voucher backup material.

               The Intragovernmental Payment and Collection (IPAC)
               transaction is processed using the NRC Approval Form for
               Interagency Billing that OCFO generates from the agency’s
               financial accounting system. In accordance with MD 11.7,
               project managers are required to process and return the NRC
               Approval Form for Interagency Billing to OCFO within the
               required timeframe.

                      Untimely IPAC Approvals

               OIP did not approve IPAC transaction documentation within the
               required timeframe. OIG reviewed 10 IPACs for work that
               Brookhaven National Laboratory conducted between May 2007
               and August 2007 for assistance activities to Russia. OIG found
               that OIP did not approve and return to OCFO any of the IPACs
11
  In November 1999, when this guidance was written, GAO's legal name was the General
Accounting Office.


                                            11
                             Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


within the required 20 calendar day timeframe. Furthermore,
these 10 IPACs were past due by an average of 76 days.
Figure 5 below shows an aging chart for the sample of IPACs
reviewed.


                                      Timeliness of IPAC Approvals for
                                         USAID-Funded Activities

   Number of IPACs   4

                     3

                     2

                     1

                     0
                               1-30          31-60          61-90         91-120        Over 120
                                          Days Past Due as of October 24, 2007

Figure 5: Aging Chart for the Sample of IPACs Reviewed

Noncompliance with Agency Policy and Lack of Quality
Controls

OIP did not process the laboratory agreement transactions
timely because:

                         •   OIP is not following existing agency policy, and

                         •   OIP managers do not have quality control procedures
                             in place involving review of IPAC transaction
                             processing.

The office procedures OIP is developing are expected to
provide guidance on completing OIP tasks and activities. OIP
drafted an office level Desk Officers Handbook that OIP
management said is expected to contain an appendix with
procedures for using FSA funds.

Improper Payment Errors

Without quality control procedures that ensure IPAC
transactions are processed within required timeframes, OIP
heightens the potential for improper payment errors that would
otherwise be discovered during the IPAC review process.




                                              12
          Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


OIP has experienced IPAC processing errors in the past. For
example, during the period, December 2004 through December
2005, four IPAC errors occurred. These errors accounted for
approximately $23,000 being miscategorized in NRC’s official
accounting records. Corrected in October 2007, these errors
could have been prevented if the project manager had adhered
to the agency’s IPAC processing requirements.

Recommendations

OIG recommends that the Director, OIP, in coordination with
other appropriate offices:

4.    Develop and implement quality controls to require
      periodic supervisory review of the timeliness of
      Intragovernmental Payment and Collection transaction
      processing.

5.    Modify OIP supervisor’s and project managers’
      performance elements, standards, and appraisal (NRC
      Form 412) to include accountability measures for
      following NRC policies regarding Intragovernmental
      Payment and Collection transaction processing and
      funds control.




                           13
                  Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Director, OIP, in coordination with
        other appropriate offices:

        1.    Modify the Advanced Systems Technology and
              Management, Inc., contract to require invoices to identify
              contract costs by country.

        2.    Correct accounting records applicable to the Advanced
              Systems Technology and Management, Inc., contract.

        3.    Develop and implement written office procedures for the
              U.S. Agency for International Development funded
              program to include guidance on contract payments and
              associated quality controls involving supervisory review.

        4.    Develop and implement quality controls to require
              periodic supervisory review of the timeliness of
              Intragovernmental Payment and Collection transaction
              processing.

        5.    Modify OIP supervisor’s and project managers’
              performance elements, standards, and appraisal (NRC
              Form 412) to include accountability measures for
              following NRC policies regarding Intragovernmental
              Payment and Collection transaction processing and
              funds control.




                                   14
                 Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities

                                                                         Appendix A


SCOPE AND METHODOLOGY

       To determine whether NRC has adequate internal controls in
       place to manage the USAID funds, OIG auditors reviewed and
       analyzed pertinent program data, authoritative guidance, and
       prior OIG and GAO reports which focused on the management
       of nuclear safety assistance.

       In addition, OIG conducted interviews with selected NRC
       representatives and officials from the U.S. Department of State
       and USAID to gain an understanding of the program and to
       determine current issues, problems, or known deficiencies.

       Internal controls related to the audit objective were reviewed
       and analyzed. Throughout the audit, auditors were aware of the
       possibility or existence of fraud, waste, or misuse in the
       program.

       We conducted this performance audit in accordance with
       generally accepted government auditing standards. Those
       standards require that we plan and perform the audit to obtain
       sufficient, appropriate evidence to provide a reasonable basis
       for our findings and conclusions based on our audit objectives.
       We believe that the evidence obtained provides a reasonable
       basis for our findings and conclusions based on our audit
       objectives.

       Steven Zane, Team Leader; Vicki Foster, Audit Manager;
       Terri Cooper, Senior Auditor; and Robert Woodward, Auditor,
       conducted this audit from April 2007 to December 2007. We
       performed the audit work at NRC Headquarters in Rockville,
       Maryland.




                                  15
Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities




[Page intentionally left blank.]




                 16
                  Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities

                                                                          Appendix B


PRIOR AUDIT REPORT RECOMMENDATIONS

        NRC OIG, Audit of AID-Funded Activities, Report OIG-02-A-04,
        dated December 3, 2001, made five recommendations to
        improve the effectiveness and efficiency of NRC’s USAID-
        funded nuclear regulatory assistance program. Specifically, in
        the prior report, OIG recommended that the Director, OIP:

        ¾ Develop a process for tracking the status of the program’s
          ongoing projects.

        ¾ Issue formal guidance in a Management Directive or other
          appropriate vehicle that clearly sets forth NRC policy,
          procedures, and guidance on implementing agreements.

        ¾ Pending issuance of the formal guidance on implementing
          agreements, issue timely interim guidance.

        ¾ Convene quarterly project manager counterpart meetings.

        ¾ Complete final action on the outstanding Government
          Accountability Office (GAO) recommendation regarding
          strategic planning by November 30, 2001.




                                   17
Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities




[Page intentionally left blank.]




                 18
             Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities

                                                                     Appendix C


FORMAL AGENCY COMMENTS




                              19
Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities




                 20
                 Audit of the Nuclear Regulatory Commission’s USAID-Funded Activities

                                                                         Appendix D


OIG RESPONSE TO FORMAL AGENCY COMMENTS

       On July 2, 2008, the Director, OIP, provided a formal response
       to this report which expressed full agreement with the report’s
       recommendations. Since our audit scope excluded NRC
       appropriated funds, we cannot comment on the agency’s
       calculations of miscategorized FSA funds which include the use
       of NRC appropriated funds.

       We will review the adequacy of agency corrective actions taken
       during the audit followup process.




                                  21
